APPENDIX A
General Docket: United States Court of Appeals for the Fourth Circuit,
Court of Appeals Docket #• 19-2458

Docketed: 12/20/2019

Nature of Suit: 3442 Jobs

Term: 03/12/2020

Marjory Childs v. Tidewater Community
Appeals the United States Eastern District Court (2:i9-cv-00002-MSD-RJK
Federal Procedures 41(a)
Fee Status: in forma pauperis
APPENDIX B
Originated Court Information:
District: 0422-2: 2:19-cv-00002-MSD-RJK
Presiding Judge Mark S. Davis, Chief U.S District Court JudgeNature of Suit

442 Civil Rights -Employment

Cause

Job Discrimination (Disability Act

Date filed: 01/02/2019
Date Order/Judgement:

Date Order/Judgement EOD: Date NOA Filed* Date Rec d COA-

11/18/2019

11/18/2019

12/18/19

12/19/19

Civil, Habeas, & 2255 Case: District Court granted & did not revoke IFP status (continues
on appeal)
Appendix C
Charge of Discrimination In violation of Title VII of the Civil Act of 1964, as amended and
the American with Disability Act of, 1990, as amended.
File Charge Date: 10/17/18- by Marjory Childs: File Date by Norberto Rose-Ramos, Local
Office Director filed EEOC Charge: Agency Charge # 437-2019-00054

USCA4 Appeal: 19-2458 '

Doc: 6-2

Filed: 03/12/2020

Pg: 1 of 1

i

FILED: March 12, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2458
(2:19-CV-00002-MSD-RJK)
MARJORY CHILDS
Plaintiff - Appellant
v.

WESTERN TIDEWATER COMMUNITY SERVICES BOARD
Defendant - Appellee

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
Is/ PATRICIA S. CONNOR. CLERK

f.s

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2458
MARJORY CHILDS,
Plaintiff - Appellant,
v.
WESTERN TIDEWATER COMMUNITY SERVICES BOARD,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of Virginia, at
Norfolk. Mark S. Davis, Chief District Judge. (2:19-cv-00002-MSD-RJK)
Decided: March 12, 2020

Submitted: March 10,2020

Before NIEMEYER and AGEE, Circuit Judges, and SHEDD, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Marjory Childs, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

p.a

PER CURIAM:
Marjory Childs appeals the district court’s order dismissing her civil action without
prejudice for failure to prosecute. We have reviewed the record and find no reversible
error. Accordingly, we affirm for the reasons stated by the district court. Childs v. W
.Tidewater Cmty. Servs. Bd., No. 2:19-cv-00002-MSD-RJK (E.D. Va. Nov. 18,2019).1 We
dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.

//

AFFIRMED

P>

Case 2:19-cv-00002-MSD-RJK Document 10 Filed 11/18/19 Page 1 of 5 PagelD# 173

FILED
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Norfolk Division

NOV 1 8 2019
CLERK. US DISTRICT COUR1
NORFOLK. VA ,

MARJORY CHILDS,
Plaintiff,
v.

ACTION NO. 2:19cv2

WESTERN TIDEWATER
COMMUNITY SERVICES BOARD,
Defendant.
DISMISSAL ORDER
This matter is before the Court following pro se Plaintiffs continued failure to prosecute
this action and to comply with Orders of this Court. As explained in more detail below, the
Court hereby DISMISSES this action without prejudice pursuant to Rule 41(b) of the Federal
Rules of Civil Procedure.
1. Background
On March 7, 2019, the Court granted Plaintiffs second application to proceed in forma
pauperis, and directed the Clerk to file Plaintiffs Complaint. Order Show Cause at 1-2, ECF
No. 4. However, the Court explained that Plaintiffs Complaint “suffered] from defects that
must be addressed before this action may proceed.” Id. at 2.
In her Complaint, Plaintiff alleged that she was previously employed by Defendant
Western Tidewater Community Services Board (“Defendant”). See Charge of Discrimination
(“Charge”), attached within Ex. 1 to Compl, ECF No. 5-1 at 2. Plaintiff claimed that she had “a
chronic disability that prevented her [from doing] her job description” and from handling “severe
caseloads.” Compl. at 4, ECF No. 5. Plaintiff claimed that she took “medical leave,” and that

f>.3

Case 2:19-cv-00002-M$D-RJK Document 10 Filed 11/18/19 Page 2 of 5 PagelD# 174

while she was out of the office, “[her] supervisor did not distribute [her] case load to co-workers.”
Charge at 1. Plaintiff claimed that when she returned to work, she “was given four extra severe
cases.” Id. Plaintiff also claimed that her supervisor previously allowed her to work from home,
but “now they do not allow [her] to.” Id. According to Plaintiff, she resigned on October 15,
2018, due to workload issues. Id.\ see also Compl. at 4. In the “Basis for Jurisdiction” section of
her Complaint, Plaintiff stated that this lawsuit was brought pursuant to “Title VII [of the Civil
Rights Act of 1964], the American[s] [With] Disabilities Act, the Genetic [information
Nondiscrimination Act, or the [A]ge Discrimination in Employment Act” Compl. at 3.
^In an Order to Show Cause dated March 7, 2019, the. Court explained that pursuant to 28
U.S.C. § 19I5(e)(2), it was required to dismiss a case at any time if the Court “determines that...
the action ... fails to state a claim on which relief may be granted.” Order Show Cause at 2

^_

...

.. - ----7

...........

(quoting 28 U.S.C. § 1915(e)(2)). The Court furtherexplained that“[a]/vo se complaint should

:?

survive only when a plaintiff has set forth ‘enough facts to rtate a claim to relief" thatis plausible on
itsface.*” Id. (quoting #*?// All. Corp. v.Twombly, 550 U.S. 544, 570 (2007)). ^Upon review of
Plaintiffs Complaint, the Court stated: “Plaintiff has not alleged sufficient facts to state a claim for
relief under any of Plaintiff s asserted theories.” Id. at 3.

r'

Cognizant of Goode v. Central Virginia Legal Aid Society. Inc.% 807 F.3d 619 (4th Clr.

2015), and its progeny, and in deference to Plaintiffs prose status, the Court provided Plaintiff
with an opportunity to file an Amended Complaint. Id. The Court stated:
Plaintiff is ORDERED to SHOW CAUSE why this action should
not be dismissed by filing an Amended Complaint within thirty
days of the date of entry of this Order to Show Cause. The
Amended Complaint must (i) clearly identify all Defendants against
whom Plaintiff intends to assert claims;111 (ii) clearly identify the

Upon review of Plaintiffs Complaint, it was unclear to the Court whether Plaintiff
intended to name certain individuals as Defendants in this action. See Order Show Cause at 3 n.2,
2

Case 2:l9-cv-00002-MSD-RJK Document 10 Filed 11/18/19 Page 3 of 5 Page!D# 175

specific claims asserted against each Defendant; (iii) clearly identify
all of the factual allegations upon which all of die claims are based;
and (iv) attach any relevant exhibits to support such claims.
Id.
On April 4, 2019, Plaintiff filed a document in response to the Court’s Order to Show
Cause, which the Court construed as Plaintiffs Amended Complaint. See Am. Compl., ECF
No. 6; Order at 3, ECF No. 7. Plaintiff’s Amended Complaint consisted of (i) a copy of the
Court’s March 7, 2019 Order to Show Cause; (ii) a copy of Plaintiffs Charge; (iii) a copy of a
Dismissal and Notice of Rights letter from the Equal Employment Opportunity Commission;
(iv) a letter to the undersigned that contained certain factual allegations related to this action; and
(v) over one hundred pages of additional exhibits. Id.
Contrary to the instructions set forth in the Court’s March 7, 2019 Order to Show Cause,
Plaintiffs Amended Complaint did not clearly identify (i) the Defendants against whom Plaintiff
intended to assert claims; (ii) the specific claims asserted against each Defendant; or (iii) all of
the factual allegations upon which Plaintiffs claims were based. Despite these deficiencies, the
Court chose not to dismiss the action, but instead ordered Plaintiff to file a Second Amended
Complaint Order at 3.

In an Order dated September 13,2019, the Court stated:

Plaintiff is ORDERED to file a Second Amended Complaint
within thirty days of the date of entry of this Order. Plaintiff k
ADVISED that her Second Amended Complaint will supersede her
Amended Complaint and will become the operative complaint In
this action. As such, the Second Amended Complaint must (iYhe
clearly labeled as Plaintiffs Second Amended Complaint;
(ii) clearly identifr all Defendants against whom Plaintiff intends
to assert claims: (iii) clearly state, with specificity, all claims that
Plaintiff intends to assert against each Defendant: (iv) clearly set
forth all factual allegations upon which Plaintiffs claims are
based: and (v) attach any relevant exhibits to support such claim*

ECF No. 4. In its March 7,2019 Order to Show Cause, the Court directed Plaintiff to “clarify her
intentions via her Amended Complaint.” Id.
3

Case 2:19-cv-00002-MSD-RJK Document 10 Filed 11/18/19 Page 4 of 5 PagelD# 176

Id. (emphasis in original). The Court specifically warned Plaintiff that “this case may be
dismissed if she fails to comply with this Order.” Id. Plaintiff did not file a Second Amended
Complaint as ordered by the Court
In an Order dated October 24, 2019, the Court determined that “Plaintiffs failure to file
her Second Amended Complaint, as ordered, constitute[d] a failure to prosecute this action and a
failure to comply with the terms of the Court’s September 13,2019 Order.” Order at 4, ECF
No. 8. The Court explained:
Pursuant to Federal Rule 41(b), “[i]f the plaintiff fails to prosecute
or to comply with these rules or a court order, a defendant may
move to dismiss the action or any claim against it.” Fed. R. Civ. P.
41(b). Although Federal Rule 41(b) states that “a defendant may
move to dismiss the action,” the Court retains the “authority to act
on its own initiative,” and “need not await a motion from a
defendant before it employs die dismissal sanction.” Id.; see also
Zaczek v. Fauquier Cty., 764 F. Supp. 1071, 1075 n.16 (E.D. Va.
1991) (citing Link v. Wabash A Co., 370 U.S. 626,630 (1962)).
Id.
Although the Court determined that Plaintiffs inaction justified dismissal under Federal
Rule 41(b), the Court chose not to immediately dismiss this action. Id. Instead, in deference to
Plaintiffs pro se status, the Court sua sponie granted Plaintiff a limited extension of time to file
her Second Amended Complaint. Id. The Court stated: “Plaintiff is ORDERED to file her
Second Amended Complaint within fourteen days from the date of entry of this Order.” Id.
Additionally, the Court specifically warned Plaintiff that “this action will be dismissed
pursuant to Federal Rule 41(b) if she fails to comply with this Order ” Id. (emphasis added).
More than fourteen days have passed, and Plaintiff again failed to file a Second Amended
Complaint, as ordered.2 Under these circumstances, the Court finds that despite multiple

2 The Court notes that the Clerk mailed the October 24, 2019 Order to Plaintiff at the
address Plaintiff provided to the Court; however, the mailing was subsequently returned as
4

Case 2:19-cv-00002-MSD-RJK Document 10 Filed 11/18/19 Page 5 of 5 PagelD# 177

opportunities provided by the Court, Plaintiff has failed to prosecute this action. Additionally, the
Court finds that Plaintiff has failed to comply with two separate Orders of this Court.
Accordingly, Plaintiff’s action is hereby DISMISSED without prejudice pursuant to Federal
Rule 41(b).3
II. Conclusion
For the reasons set forth above, Plaintiffs action is hereby DISMISSED without prejudice
pursuant to Rule 41(b) of the Federal Rules of Civil Procedure.
Plaintiff may appeal this Dismissal Order by forwarding a written notice of appeal to the
Clerk of the United States District Court, Norfolk Division, 600 Granby Street, Norfolk, Virginia
23510. The written notice must be received by the Clerk within thirty days from the date of entry
of this Dismissal Order.
The Clerk is DIRECTED to send a copy of this Dismissal Order to Plaintiff.
IT IS SO ORDERED.
Mi
Mark S. Davis
CHIEF UNITED STATES DISTRICT JUDGE
Norfolk, Virginia
November

/r ,

2019

undeliverable. See Undeliverable Mail, ECF No. 9. Plaintiff has not provided the Court with an
alternate mailing address.
3 In Doyle v. Murray, 938 F.2d 33, 34 (4th Cir. 1991), the United States Court of Appeals
for the Fourth Circuit discussed a four-factor test to be used in determining whether the sanction of
dismissal with prejudice is appropriate Under Rule 41(b). Here, the Court is dismissing Plaintiffs
action without prejudice. As such, the four-factor test enunciated in Doyle is inapplicable.
5

■T—'-

{

i

EEOC Fqr?n 5 (11/09)

CWADaF OF nr<;rt?TUT>JATTn>J
V

Charge Presented To:

This form is affected by the Privacy Act of 1974. See enclosed Privacy Act
Statement and other information before completing this form.

Agencvfies) Charge NoCsl:

FEPA

X EEOC

437-2019*00054

Virginia Division ofHuman Rights

and EEOC

State orlocalAgency, ifany
Name (indicate Mr* MS* Mrs,)

Ms. Marjory D Childs
Street Address

Home Phone

Year of Birth

(757)831-0426

1965

City, State and ZIP Code

204D Oak Leaf Court, CHESAPEAKE, VA 23320
a*’?”
Named is the Employer, Labor Organization, Employment Agency, Apprenticeship Committee, or State or Local Government Agency That i Believe Discriminated
Against Me or Others. [Ifmore than two, list under PARTICULARSJielow)
Name

WESTERN TIDEWATER COMMUNITY SSERVICE BO&RD
Street Address

No. Employees, Members

Phone No.

101-200

(757)942-1069

No. Employees, Members

Plume No.

City, State and ZIP Code

.• *.

135 S. Saratoga Street Suffolk, VA SUFFOLK, VA 23434
Name

Street Address

DISCR11

City, State and ZIP Code

mON BASED ON (Checkappropriate boxfes),)

□
□□
□
□ a
□
RACE

COLOR

RETALIATION

j

date{s) discrimination took place

RELIGION

AGE

DISABILITY

NATIONAL ORIGIN

Earliest

Latest

10-15-2018

10-15-2018

GENETIC INFORMATION

| other(spedfy)

|

| CONTINUING ACTION

THE PARTICULARS ARE Of additionalpaper is needed, attach extra sheetfs)):

1.1 began employment with the above referenced employer from 2005 to 2009 and from 2012 to present. I provided my employer
numerous letters concerning my chronic health issues. While I was on FMLA my supervisor did not distribute my case load to co­
workers while I was on medical leave. The company human resource department expressed to me that I only can get two weeks
sick pay, and not disability because it was only for employees that came after the year 2014. When I returned to work, I was given
four extra severe cases, and then later, my supervisor allowed me to work from home but now they do not allow me to. My
supervisor called me in her office last week saying she was giving me a supervisory and I told her that she never gaveme a
verbaL I have not ever had a write up since I worked with this company. She did not write me up because I explained to her the
policy and rules i was following. Consequently, I resigned my position on October 15,2018.
n. I believe I was denied reasonable accommodation and constructively discharged because of my race, nlark in violation ofTitle
VH ofthe Civil Rights Act of1964, as amended and the Americans with Disabilities Act of1990, as gmondpd

I want this charge filed with both the EEOC and the State or local Agency, ifany. I will
advise the agencies ifI change my address or phone number and I will cooperate fully with
them in the processing of my charge in accordance with their procedures.

NOTARY- When necessaryforState andUscalAgencyRequirements

I declare under penalty of perjury that the above is true and correct

best ofmy knowledge, information and belief

I swear or affirm that I have read the above charge and that it is true to the
SIGNATURE OF COMPLAINANT

Digitally signed by Marjory Childs on 10-16-2018 03:09 PM EDT

SUBSCRIBED AND SWORN TO BEFORE ME THIS DATE
{month, day,year)
ti
. 1

U.S. Equal Employment Opportunity Commission
EEOC Form 161 (11/16)

Dismissal and Notice of Rights
From:
To:

204D Oak Leaf Court
Chesapeake, VA 23320

□

ie
orfoH
200 Granby Street
Suite 739
Norfolk, VA 23510

On behalf ofperson(s) aggrieved whose Identity is
CONFIDENTIAL (29 CFR $1601.7(a)L----------- -------- -------- -—-----------------

EEOC Charge No.

EEOC Representative •

Norberto Rosa-Ramos,
at.7 9019-00054
Local Office Director
...——
THE EEOC IS CLOSING ITS FILE ON THIS CHARGE FOR THE FOLLOWING
□ The facts alleged in the charge fail to state a claim under any of the staMes enforced by th
□

Your allegations did not involve a disability as delined by the Americans With Disabilities Act

|

The Respondent employs less than the

^

|
|
---[~X1

Telephone No.
(757) 441-6669

required number of employees or is not otherwise covered by the statutes.

in other words, you waited too long after the date(s) of the alleged
your charge- was not timely filed with EEOC,
discrimination to file your charge
The EEOC issues the following deteminatiomBas^^
£ “rampllnce with
dr© stmutea° No* findl^iMmul® asto any3DtheMssuerfthat might be construed as having bean raised

□

..... .

The EEOC has adopted the findings of the state or local fair employment practices agency dirt inveshgatedlhisxharg

}. ~j,. __ Other (briefly state)

. NOTICE of suit rights (See the additional information attached to this form.)
Title VII, the Americans with Disability Act, the Genetic
Discrimination in Employment Act: This
You may flte iagamst fta

Wsurtte'we will sand you.

^federal law based on this charge in federal or slate court. Your
, tf this notice; or your right to sue based on th,s charge will be

d in federal
before you file suit may not be collectible.
V

/

f■■■■*---------

Enclosures(s)
cc:

n

/
\
\
iefTSehalf/ofthe/Cpmmission
i

1 : \

X Y
i

Norberto Rosa-Ramos,
' Local Office Director

Michelle Holland
WESTERN^ID^ATER COMMUNITY SERVICE
BOARD
7025 Harbour View Blvde
Suite 119
Suffolk, VA 23435

ft (<3

10/17/12
(Date Mailed)

C~

•

*\ r

'EChlVBD

•
..FILED: April 3, 2020

•>m. &PR i 5 ftH 10* UO
if S. COURT 0F APPEALS

r0l!RTW®TED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

T Tii«Tc M

No. 19-2458
(2:19-CV-00002-MSD-RJK)

MARJORY CHILDS
Plaintiff - Appellant
v.
WESTERN TIDEWATER COMMUNITY SERVICES BOARD
Defendant - Appellee

MANDATE
Tntrjudgment or mis court, entered March 12, 20207takes effect today;
This constitutes the formal mandate of this court issued pursuant to Rule
41(a) of me Federal Rules of Appellate Procedure.
/s/Patricia S. Connor, Clerk

X

\

p.4

/
/

UNITED STATES DISTRICT COURT
FORTHE
EASTERN DISTRICT OF VIRGINIA
___ hLowl K
DIVISION

5

Plaintiffs)

.s

a:

CIVIL ACTION NO.

u:;~
ST'

v.

jT'-t .

CRIMINAL NO.

Defendant(s)

*

o

v J

CD

JQ.

33
PI

o

PI
<

a***!

» ‘i

o
—J

NOTICE OF APPEAL

m

Notice is hereby given that

5

above named, hereby appeals to

the United States Court of Appeals for the Fourth Circuit from the Order entered in this action on

fl*6 —_day of Pg CPfClfo^r 2n iff

Wo,

c

jildl

Attorney or Pr^SeAppeUanp

3 01 PpnrU uJoed OT
"doffc 1 K, UDr '1^L13</
Address
. Dated:

USCA4 Appeal: 19-2458

Doc: 1

Filed: 12/20/2019

Pg: 1 of 1

3

FILED: December 20,2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2458
(2:19-cv-00002-MSD-RJK)

MARJORY CHILDS
Plaintiff - Appellant
v.
WESTERN TIDEWATER COMMUNITY SERVICES BOARD
Defendant - Appellee
wtsmaa

mm

This case has been opened on appeal.
Originating Court
Originating Case Number
Date notice of appeal filed in
originating court:
|Appellant(s)
[Appellate Case Number
Case Manager

United States District Court for the
Eastern District of Virginia at Norfolk
2:19-cv-00002-MSD-RJK
12/18/2019
[Marjory Childs
119-2458
Michael Radday
804-916-2702

